No. 19-296
IN THE SUPREME COURT OF THE UNITED STATES
DAMIEN GUEDES, ET AL., PETITIONERS
V.

BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND
EXPLOSIVES, ET AL.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENTS IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 4th day of December 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 8241 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
December 4, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 4, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0296
GUEDES, DAMIEN, ET AL.
ATF,ETAL.

ALAN ALEXANDER BECK
LAW OFFICE OF ALAN BECK
2692 HARCOURT DRIVE
SAN DIEGO, CA 92123
615-905-9105
ALAN.ALEXANDER.BECK@GMAIL.COM
JOHN D. CLINE
LAW OFFICE OF JOHN D. CLINE
ONE EMBARCADERO CENTER
SUITE 500
SAN FRANCISCO, CA 94111
415-662-2260
CLINE@JOHDCL[NELAW.COM
ADITYA DYNAR
NEW CIVIL LIBERTIES ALLIANCE
1225 19TH STREET, NW
SUITE 450
WASHINGTON, DC 20036
202-908-6202
ADITYA.DYNAR@GMAIL.COM
JOHN C. EASTMAN
THE CLAREMONT INSTITUTE CENTER FOR
CONSTITUTIONAL JURISPRUNCE
CHAPMAN UNIVERSITY
DALE E. FOWLER SCHOOL OF LAW
ONE UNIVERSITY DRIVE
ORANGE, CA 92866
877-855-3330
JEASTMAN@CHAPMAN.EDU

FRANK D. GARRISON
NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, INC.
8001 BRADDOCK ROAD
SUITE 600
SPRINGFIELD, VA 22160
703-321-8510
FDG@NRTW.ORG
JOSEPH GREENLEE
FIREARMS POLICY COALITION
1215 K STREET
17TH FLOOR
SACRAMENTO, CA 95814
970-485-3303
JOSEPHGREENLEE@GMAIL.COM
ERIK S. JAFFE
SCHAERR JAFFE LLP
1717 K STREET NW
WASHINGTON, DC 20006
202-787-1060
EJAFFE@SCHAERR-JAFFE.COM
CALEB KRUCKENBERG
NEW CIVIL LIBERTIES ALLIANCE
1225 19TH STREET, NW
SUITE 450
WASHINGTON, DC 20036
202-869-5210
CALEB .KRUCKENBERG@NCLA. LEGAL

RAYMOND J. LAJEUNESSE, J1.
C/O NATIONAL RIGHTS TO WORK LEGAL
DEFENSE FOUNDATI
8001 BRADDOCK ROAD
SUITE 600
SPRINGFIELD, VA 22160
703-321-8510
RJL@NRTW.ORG
JOSHUA PRINCE
CIVIL RIGHTS DEFENSE FIRM, P.C.
646 LENAPE ROAD
BECHTELSVILLE, PA 19505
610-845-3803
JO SHUA@PR1NCELA W. COM
DANIEL L. SCHMUTTER
LAW OFFICES HARTMAN & WINNICKT, P.C.
74 PASSAIC STREET
RIDGE WOOD, NJ 07450
201-967-8040
DSCHMUTTER@HARTMANWINNICKI.COM
ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-2 1 8-4600
ISHAPIRO@CATO.ORG
STEPHEN D. STAMBOULIEH
STAMBOULIEH LAW PLLC
P0 BOX 4008
MADISON, MS 39130
601-852-3440
STEPHEN@SDSLAW.US

